ATTORNEY GENERAL

STATE OF MONTANA

Tim Fox Department of Justice
Attorney General Joseph P. Mazurek Justice Bldg.
215 North Sanders
PO. Box 201401
Helena, MT 59620-1401

March 6, 2020

Mr. Danny Bickell

Deputy Clerk

Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

Re: National Association for Gun Rights v. Mangan, No. 19-767
Dear Mr. Bickell,

I am writing to request a second 30-day extension to April 27, 2020, in which to file
a brief in opposition to the petition for certiorari in this case. Rule 30(4).
Respondent’s brief in opposition is currently due on March 27, 2020.

The extension is necessary because of the heavy press of cases with proximate due
dates assigned to the attorneys responsible for preparing the State of Montana’s
response, including an oral argument before the Montana Supreme Court that was
scheduled after the State’s previous extension request. Counsel for the State have
attempted to contact Petitioner’s counsel of record by email and phone to determine
Petitioner’s position but have not yet received a response.

The State will work diligently in preparing a draft of the brief in opposition, but
needs additional time to ensure sufficient review, input, and revision so that the
issues presented in the petition are fully addressed for the Court.

Thank you for your assistance.

Sincerely,

Naki oT - bck ——

MATTHEW T. COCHENOUR
Acting Solicitor General
Counsel for Respondent

cc: David Warrington, Matthew Monforton, Counsel for Petitioner
TELEPHONE: (406) 444-2026 FAX: (406) 444-3549 E-MAIL: contactdoj@mt.gov WEB: mtdoj.gov
MONTANA DEPARTMENT OF JUSTICE

Legal Services Division * Division of Criminal Investigation * Highway Patrol Division * Forensic Science Division
Gambling Control Division * Motor Vehicle Division * Information Technology Services Division * Central Services Division
